                              U.S. DEPARTMENT OF EDUCATION 

                                    OFFICE OF INSPECTOR GENERAL

                                         75 Park Place, 12th Floor 

                                        New York, New York 10007 

                                         Telephone (212) 264-8442 Fax (212) 264-5228




November 24, 2003                                                          Control Number ED-OIG/A02-D0007


Joel I. Klein, Chancellor
The New York City Department of Education
52 Chambers Street, Room 320, B4
New York, NY 10007

Dear Chancellor Klein:

This Final Audit Report presents the results of our Audit of the New York City
Department of Education (NYCDOE), Manhattan High Schools Superintendent’s
District’s (District) Administration of the 21st Century Community Learning Centers (21st
CCLC) Program. Our audit objective was to determine whether the District properly
accounted for and used 21st CCLC funds in accordance with the Elementary and
Secondary Education Act of 1965 (ESEA), as amended, Education Department General
Administration Regulations, the cost principles in Office of Management and Budget
(OMB) Circular A-87, Title 20 of the United States Code (USC), OMB Circular A-133,
and grant terms for the period June 1, 2000, through May 31, 2001.

We provided a draft of this report to NYCDOE. In its response dated November 3, 2003,
NYCDOE agreed with our findings and recommendations. NYCDOE also agreed with
the Other Matters section of our report. We have summarized NYCDOE’s comments
after each finding and have included the response as Attachment 1.

                                                    AUDIT RESULTS

NYCDOE and the District generally accounted for and used 21st CCLC funds properly
with the following exceptions:1 (1) NYCDOE did not comply with the regulations for
cash management when it drew down and disbursed 21st CCLC grant funds for the
District, (2) NYCDOE and the District charged unsupported costs of $61,776 to the 21st
CCLC grant, and (3) NYCDOE and the District did not implement adequate internal
controls over imprest fund and encumbrances.




1
    NYCDOE acted as a conduit to draw and disburse 21st CCLC grant funds for the District.


          Our mission is to promote the efficiency, effectiveness, and integrity of the Department’s programs and operations.
Audit of NYCDOE, Manhattan High Schools Superintendent’s                                 Final Report 

District’s Administration of the 21st CCLC Program                                 ED-OIG/A02-D0007



Finding 1 – NYCDOE Did Not Comply With the Regulations for Cash
            Management.

NYCDOE maintained excess cash up to 202 days beyond the allowable three-business
day period that funds had to be used or returned.

Per 34 CFR § 80.20 (b) (7),2

        Procedures for minimizing the time elapsing between the transfer of funds
        from the U.S. Treasury and disbursement by grantees . . . must be
        followed whenever advance payment procedures are used. . . . When
        advances are made by . . . electronic transfer of funds methods, the grantee
        must make drawdowns as close as possible to the time of making
        disbursements. . . . .

Pursuant to 34 CFR § 80.21(b), the grantee shall minimize the time elapsing between the
transfer of funds and disbursement of the funds in accordance with Treasury regulations
at 31 CFR § 205.

The regulations at 31 CFR § 205.7(c)(4) state the grantee shall request funds not more
than three business days prior to the day on which it makes a disbursement.

According to 31 CFR § 205.12(a), a State will incur an interest liability to the Federal
Government from the day Federal funds are credited to a State account to the day the
State pays out the funds for program purposes.

NYCDOE made two drawdowns for the 21st CCLC grant funds for the 2000-2001 year,
totaling $1,019,074. The first drawdown was requested on May 7, 2001, in the amount of
$727,084, of which $516,630 was disbursed in accordance with the regulations for cash
management. Of the balance, $137,111 was for encumbrances, and $73,343 was a
projection amount. The $137,111 for encumbrances was disbursed from 13 to 202 days
after May 10, 2001, the third business day after the drawdown date.3 The $73,343
projection amount was expended by May 21, 2001.

On June 13, 2001, NYCDOE requested the second drawdown in the amount of $291,990.
According to NYCDOE, this drawdown was based on the remaining balance of the 2000-
2001 grant. NYCDOE officials stated that they believed they would have sufficient
expenses to cover this drawdown. We found that $273,891 was disbursed from 1 to 143
days after June 18, 2001, the third business day after the second drawdown date.4

According to NYCDOE officials, its practice was to draw down Federal funds in
the same manner as it drew down State funds, which included drawing down funds
for encumbrances. NYCDOE claimed it had no knowledge of the requirements for
2
  Unless otherwise specified, all regulatory citations are to the 2000 volume.

3
  As of 30 days after the funds were drawn, NYCDOE had not disbursed $134,175 of the first drawdown. 

4
  As of 30 days after the funds were drawn, NYCDOE had not disbursed $35,738 of the second drawdown. 



                                                    2

Audit of NYCDOE, Manhattan High Schools Superintendent’s                             Final Report 

District’s Administration of the 21st CCLC Program                             ED-OIG/A02-D0007



drawing down Federal funds during the first grant year. In addition, the
drawdowns for 21st CCLC grant funds were not monitored to ensure the time
between drawing down funds and paying for grant activities was minimized.
Specifically, there were no procedures in place to ensure 21st CCLC funds were not
requested more than three business days prior to disbursement.

Since NYCDOE maintained excess cash, it incurred an imputed interest liability to the
U.S. Department of Education (ED).

Recommendations

We recommend that the Office of the Chief Financial Officer (OCFO), in conjunction
with the Assistant Secretary for Elementary and Secondary Education, instruct NYCDOE
to:

1.1 	   Establish procedures to ensure that it minimizes the time between drawing down
        21st CCLC grant funds and paying for grant activities, and

1.2 	   Calculate and return the interest liability to ED incurred from maintaining excess
        cash.

Auditee Comments

In its response, NYCDOE agreed with our finding and recommendations. NYCDOE
stated that it had discontinued the practice of drawing down funds for non-personnel
transactions in 2001, and that it only requests the transfer of funds once actual payments
are made. NYCDOE also agreed to pay ED the interest incurred from maintaining excess
cash and is awaiting further information in order to perform the interest calculation.

OIG Response

NYDOE did not provide documentation to support the corrective actions stated in their
response, therefore, we were unable to review these procedures. When implemented, the
corrective actions NYCDOE outlined in its response should rectify NYCDOE’s failure to
comply with the cash management regulations. ED will contact NYCDOE to provide
necessary information for computing the interest liability.

Finding 2 – Unsupported Costs Were Charged to the 21st CCLC Grant.

NYCDOE did not provide adequate documentation to support $57,349 of Other Than
Personal Service (OTPS) costs and $4,427 of Personal Service (PS) costs charged to the
21st CCLC grant.

Per 34 CFR § 75.730, “A grantee shall keep records that fully show . . . (b) How the
grantee uses the funds; (c) The total cost of the project . . . (e) Other records to facilitate
an effective audit.”



                                                    3

Audit of NYCDOE, Manhattan High Schools Superintendent’s                                 Final Report 

District’s Administration of the 21st CCLC Program                                 ED-OIG/A02-D0007



Pursuant to 20 USC § 1232f(a),

          Each recipient of Federal funds under any applicable program through
          any grant, subgrant, cooperative agreement, loan, or other arrangement
          shall keep records which fully disclose the amount and disposition by the
          recipient of those funds, the total cost of the activity for which the funds
          are used, the share of that cost provided from other sources, and such
          other records as will facilitate an effective financial or programmatic
          audit. The recipient shall maintain such records for three years after the
          completion of the activity for which the funds are used.

Per 34 CFR § 80.20(b)(6), accounting records must be supported by such source
documentation as cancelled checks, paid bills, payrolls, time and attendance records,
contract and subgrant award documents.

According to OMB Circular A-87 § C.1.j, to be allowable under Federal awards, costs
must be adequately documented.

Per OMB Circular A-87 § C.1.b, to be allowable under Federal awards, costs must be
allocable to Federal awards under the provisions of this Circular and per § C.3.a, “A cost
is allocable to a particular cost objective if the goods or services involved are chargeable
or assignable to such cost objective in accordance with relative benefits received.”

Other Than Personal Service
Of the 25 contracted professional services expenditures in OTPS costs, NYCDOE could
not locate original supporting documents for six expenditures totaling $56,993. During
the course of the audit, NYCDOE provided copies of the purchase orders and had these
copies re-certified from an authorizer and the goods/services receiver. NYCDOE could
not provide additional documentation, such as participant sign-in attendance records, for
the re-certified purchase orders as requested. Further, we found that the receiver
erroneously re-certified one of the six expenditures for 21st CCLC that was actually an
expense of $19,939 for Federal Vocational and Technical Education Act (VATEA)
program, therefore, we did not accept these copies. NYCDOE officials claimed that a
journal entry was made to reverse the charge out of 21st CCLC program and into the
correct program, but they did not provide any documentation for that adjustment.
Subsequently, NYCDOE officials provided additional computer printouts from its
Financial Accounting Management Information System (FAMIS), which indicated that
the $19,939 expense was paid to the vendor with 21st CCLC grant funds. 5 However, the
documentation provided did not contain evidence to show that the $19,939 expense was
paid for services rendered for the 21st CCLC program.




5
    This vendor performed services for both the VATEA program and the 21st CCLC program.


                                                    4

Audit of NYCDOE, Manhattan High Schools Superintendent’s                           Final Report 

District’s Administration of the 21st CCLC Program                           ED-OIG/A02-D0007



In addition, from our statistical sample of 30 non-contracted-professional-services 

expenditures in OTPS costs, we noticed three instances of unallocable expenses, totaling 

$356, charged to the 21st CCLC grant by the District. Although small in nature, these 

improper charges demonstrated the need to establish adequate cost allocation procedures 

and maintain adequate supporting documentation. 


NYCDOE could not provide supporting documents for six OTPS expenditures, totaling 

$56,993, because deficiencies existed in NYCDOE’s records retention system. 

Specifically, NYCDOE did not ensure that the locator numbers, which were used by 

NYCDOE’s records retention center to identify the location of the records, were assigned 

to the archived records. 


Personal Service

For our statistical sample of 30 PS expenditures, we found improper charges for: 


         Three teachers without time cards and time sheets to document payroll charges
          totaling $1,852;

         Six other teachers with incomplete documentation. Three had time cards
          available, but no time sheets; and three had time sheets available, but no time
          cards. These charges totaled $2,310; and

         A teacher who was regularly scheduled to work during the week recorded hours
          for a Saturday and a Sunday. However, there was no supporting documentation
          showing that the teacher worked on the scheduled weekend days. The associated
          payroll charges totaled $265.

NYCDOE did not ensure the original detailed time cards and time sheets were readily
available as required. According to the 21st CCLC Project Director, all original detailed
time cards and sheets were sent from his district to NYCDOE’s central office for
processing. However, according to NYCDOE’s Payroll Administrator, the 2000-2001
original detailed time cards and sheets were not readily available. She explained that
these records were boxed up and difficult to locate due to a major re-organization that
NYCDOE was undergoing.

The District improperly charged expenses to 21st CCLC grant because it did not have
procedures in place to ensure that (1) costs were properly allocated to the 21st CCLC
grant and (2) adequate supporting documentation was maintained.

Recommendations

We recommend that OCFO, in conjunction with the Assistant Secretary for Elementary
and Secondary Education, instruct NYCDOE to:

2.1       Provide sufficient documentation to support $61,776 or return the amount to ED,




                                                    5

Audit of NYCDOE, Manhattan High Schools Superintendent’s                                  Final Report 

District’s Administration of the 21st CCLC Program                                  ED-OIG/A02-D0007



2.2 	   Establish procedures to effectively monitor the records retention system in order
        to ensure that records are readily available,

2.3 	   Ensure the District establishes procedures to ensure that costs are properly
        allocated relative to the benefits received, and

2.4 	   Establish effective controls for maintaining original detailed time cards and time
        sheets in order to ensure that the records are readily available during the required
        retention period.

Auditee Comments

NYCDOE agreed with our finding and recommendations. NYCDOE agreed to return
$61,776 of unsupported costs to ED. NYCDOE stated that while they could not provide
original documentation to support expenditures, they had obtained mitigating evidence in
lieu of the original records.

Regarding recommendations 2.2 and 2.4, NYCDOE stated that they have a newly
contracted vender charged with transporting, storing, and retrieving archived NYCDOE
documentation off-site in order to improve the timeliness for retrieving documentation.
This practice is to be implemented by September 2004.

In its response to recommendation 2.3, NYCDOE stated that technical and high level
support, which includes educating schools and central offices on the procedures for the
effective management of federal grants, would be provided during the 2004-05 school
year. This high level support would ensure prudent management of grants-based awards.

OIG Response

Although NYCDOE provided mitigating evidence in lieu of the original records, the
evidence provided was not sufficient evidentiary matter to support the expenditures
charged to the 21st CCLC grant. Also, NYCDOE did not provide documentation to
support the corrective actions stated in their response. Therefore, we were unable to
review these procedures. However, the planned corrective actions should address
NYCDOE’s failure to adequately document grant costs.

Finding 3 – Inadequate Internal Controls Over Imprest Fund and Encumbrances.

The internal controls over the imprest fund expenditures in the District’s Operations unit
were weak. During our audit period, the District processed $40,232 of imprest fund
expenditures.6 The District did not always maintain segregation of duties when
processing the imprest fund expenditures. Also, NYCDOE did not always review and
verify purchase orders/encumbrances and invoice extensions before issuing payments.

6
 Purchase orders of $500 or less were processed at the District using the imprest fund through NYCDOE’s
FAMIS, any amount over $500 was processed at NYCDOE’s Centralized School Payments and Support
office through FAMIS.


                                                    6

Audit of NYCDOE, Manhattan High Schools Superintendent’s                         Final Report 

District’s Administration of the 21st CCLC Program                         ED-OIG/A02-D0007



According to OMB Circular A-133 §__.300, “The auditee shall . . . (b) Maintain internal
control over Federal programs that provides reasonable assurance that the auditee is
managing Federal awards in compliance with laws, regulations, and the provisions of
contracts or grant agreements that could have a material effect on each of its Federal
programs.”
Further, OMB Circular A-133 Compliance Supplement, Part 6 (March 2000), provides a
description of the components of internal control and examples of characteristics
common to compliance requirements:
        Control Activities are the policies and procedures that help ensure that
        management’s directives are carried out. . . .

                Adequate segregation of duties provided between performance,
                 review, and recordkeeping of a task.
                Computer and program controls should include: . . .
                 –      Access controls.
                 –      Review of input and output data . . . .

We found that there was inadequate segregation of duties in the District for:

       One employee, who entered imprest fund expenditures into NYCDOE’s FAMIS,
        also approved the same expenditures in FAMIS by using the user name and
        password of another employee who was the only authorized person to approve
        expenditures in FAMIS; and

       Another employee, who approved one of the imprest fund expenditures, also
        signed as a receiver of goods/services of that particular expenditure.

At NYCDOE, purchase orders/encumbrances and invoices paid against encumbrances
were not always reviewed and verified by the Centralized School Payments and Support
office. From our review of the 55 OTPS expenditures, we found mathematical errors on
2 purchase orders and 10 invoices. The Centralized School Payments and Support office
did not verify extensions on the purchase orders or invoices before issuing payments.

According to the Director of Operations in the District, there was a shortage of staff in
the Operations unit. Therefore, the part-time employee entered and approved imprest
fund expenditures through FAMIS.

The Director of the Centralized School Payments and Support office in NYCDOE
acknowledged mathematical errors existed and stated that, given the limited number of
staff, extensions on purchase orders and invoices were not reviewed. In addition, there
was a threshold limit of 10 percent over and above encumbered amounts in FAMIS for
payments against purchase orders/encumbrances. The 10 percent threshold was
applicable to final payments of completed purchase orders/encumbrances, partial
payments for incomplete services could be overpriced and therefore overpaid. Although
we did not find any overpayments to any vendors from our sample, there is no assurance
that Federal funds were properly expended for 21st CCLC grant purposes.


                                                    7

Audit of NYCDOE, Manhattan High Schools Superintendent’s                        Final Report 

District’s Administration of the 21st CCLC Program                        ED-OIG/A02-D0007



Recommendations

We recommend that OCFO, in conjunction with the Assistant Secretary for Elementary
and Secondary Education, instruct NYCDOE to:

3.1 	   Implement internal control policies and procedures that provide adequate
        separation of duties and verification of purchase orders and invoices.

Auditee Comments

NYCDOE agreed with our finding and recommendation. NYCDOE stated that in
September 2003, the schools and central offices began generating imprest and purchase
orders through NYCDOE’s new portal to FAMIS. The portal provides a secure,
economical, and streamlined means for initiating and completing financial transactions at
the user level. It also has built-in approval paths that electronically forward imprest and
purchase orders through different levels of authorization. Further, FAMIS’s electronic
process eliminates the need for manual purchase orders that are subject to mathematical
errors. In addition, NYCDOE stated, due to its ease of use and established approval
paths, the portal allows for improved segregation of duties for imprest and purchase
orders.

OIG Response

NYDOE did not provide documentation to support the corrective actions stated in their
response, therefore, we were unable to review these procedures. Although NYCDOE
stated that the new web portal would provide a streamlined means of initiating and
completing financial transactions, the new portal may not address the segregation of
duties and protection of passwords that would allow unauthorized shared password
access to the new electronic process. Since NYCDOE did mention the ease of use,
unauthorized sharing of passwords could still be a problem in the FAMIS system.

                                        OTHER MATTERS

The in-kind contribution amount reported on ED’s 2000-2001 Grant Performance Report
was overstated by $41,756. The District reported non-federal contributions of $215,860
on the Grant Performance Report, but we could verify only $174,104. After a discussion
with the Project Director, a letter addressed to the Project Director from the vendor,
which indicated the actual reduced amount of non-federal funding, was provided to OIG.
However, the 2000-2001 Grant Performance Report submitted to ED had not been
revised.

Auditee Comments

NYCDOE agreed with the information presented in the Other Matters section of our
report. NYCDOE stated that Senior Grants Officers, through ongoing professional
training, would emphasize to the schools and Regional Operating Centers the
requirements for accurate, documented cost sharing for federal programs.


                                                    8

Audit of NYCDOE, Manhattan High Schools Superintendent’s                           Final Report 

District’s Administration of the 21st CCLC Program                           ED-OIG/A02-D0007




OIG Response

We concur.

                                          BACKGROUND

Title X, Part I, of the ESEA, as amended, authorizes the 21st CCLC grants that fund rural
and inner-city public elementary or secondary schools, or consortia of such schools, to
enable the implementation, or expansion of projects that benefit the educational, health,
social service, cultural, and recreational needs of a rural or inner-city community.

A community learning center (center) is an entity within a public elementary or
secondary school building that provides educational, recreational, health, and social
service programs for residents of all ages within a local community. The center should
be operated by a local educational agency in conjunction with local governmental
agencies, businesses, vocational education programs, institutions of higher education,
community colleges, and cultural, recreational, and other community and health service
entities. The centers must include no less than 4 of the 13 activities listed in Title X, Part
I, Section 10905, of the ESEA, as amended.

On July 1, 2003, NYCDOE reorganized its existing community school districts into 10
Instructional Leadership Divisions. Under the previous organizational structure, there
were 58 federal 21st CCLC grant recipients, usually a school or a district, in New York
City. The 58 grants totaled $91,778,979 for the period June 1, 1998 through May 21,
2003, and were distributed through NYCDOE. NYCDOE drew down 21st CCLC grant
funds from ED and disbursed the funds directly to the vendors for grant recipients.
Purchase orders of $500 or more were processed by NYCDOE through its FAMIS, and
any amount under $500 was processed in the school or the district using the imprest fund
through FAMIS.
The District was awarded $3,097,918 over a period of three years from June 1, 2000,
through May 31, 2003, for five centers within the District:

Period                                      Award Amount
06/01/2000-05/31/2001                       $1,019,074
06/01/2001-05/31/2002                       $1,030,435
06/01/2002-05/31/2003                       $1,048,409
                Total                       $3,097,918

                      OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of our audit was to determine whether the District properly accounted for 

and used 21st CCLC funds according to applicable laws and regulations for the period

from June 1, 2000 through May 31, 2001. 

To accomplish our objective, we: 





                                                    9

Audit of NYCDOE, Manhattan High Schools Superintendent’s                         Final Report 

District’s Administration of the 21st CCLC Program                         ED-OIG/A02-D0007



       Reviewed Single Audit reports of the City of New York, which included
        NYCDOE, for the years ended June 30, 2000, and June 30, 2001.
       Reviewed the District’s 21st CCLC grant application and budget narrative.
       Reviewed NYCDOE’s Standard Operating Procedures for accounting,
        procurement, payroll, and fringe benefits, where applicable, to 21st CCLC.
       Reviewed GAPS drawdown reports and the NYCDOE’s drawdown and
        disbursement records for the District’s 21st CCLC funds.
       Randomly selected and reviewed a sample of 30 non-contracted-professional-
        services expenditures in OTPS.
       Reviewed all 25 contracted-professional-services expenditures in OTPS.
       Randomly selected and reviewed a sample of 30 PS expenditures.
       Reviewed supporting documentation for the non-federal contribution.
       Reviewed supporting documentation for the indirect costs rate.
       Interviewed officials from ED’s Office of Elementary and Secondary Education,
        NYCDOE, the District, and four of its centers.

To achieve our audit objective, we relied in part on computer-processed data contained in
NYCDOE’s accounting and payroll systems. We assessed the reliability of this data
including the relevant general control and application controls and found them to be
adequate. We tested the accuracy, authenticity, and completeness of the data by
comparing source records to computer data and comparing computer data to source
records. Based on these tests and assessments we conclude that the data are sufficiently
reliable to be used in meeting the audit’s objective.

We conducted the fieldwork at NYCDOE’s central office in Brooklyn, New York, the
District’s office, and its four centers in Manhattan, New York, during the period February
13, 2003, to July 7, 2003. We held an Exit Conference with NYCDOE and the District’s
officials on August 13, 2003.

We conducted the audit in accordance with generally accepted government auditing
standards appropriate to the scope of review described above.

                     STATEMENT ON MANAGEMENT CONTROLS

As part of our review we assessed the system of management controls, policies,
procedures, and practices applicable to NYCDOE’s and the District’s administration of
the 21st CCLC grant. Our assessment was performed to determine the level of control
risk for determining the nature, extent, and timing of our substantive tests to accomplish
the audit objectives.

Because of inherent limitations, a study and evaluation made for the limited purpose
described above would not necessarily disclose all material weaknesses in the
management controls. However, our assessment disclosed management control
weaknesses that existed in the District’s administration of the 21st CCLC grant. These




                                                   10

Audit of NYC DOE, Manhattan High Schools Superintend ent's                             Final Report
Di strict's Admin istration of the 21 s1 CCLC Program                            ED-OIG /A02-D0007


weaknesses included maintaining excess cash, unsupported costs, and weak internal
controls over imprest fund and encumbrances. These weaknesses and their effects are
full y discussed in the AUDIT RESULTS section of this report.

                                 ADMINISTRATIVE MATTERS

Statements that managerial practices need improvements, as well as other conclusions
and recommendations in this report represent the opinions of the Office ofInspector
General. Determinations of corrective action to be taken will be made by the appropriate
Department of Education officials.

If you have any additional comments or information that you believe may have a bearing
on the resolution of this audit, you should send them directly to the following Education
Department officials, who will consider them before taking final Departmental action on
the audit:

                          Jack Martin
                          Chief Financial Officer
                          Office of the Chief Financial Officer
                          400 Maryland Avenue, SW, Room 4E3l3
                          Washington, DC 20202

It is the policy ofthe U.S. Department of Education to expedite the resolution of audits
by initiating timely action on the findings and recommendations contained therein.
Therefore, receipt of your comments within 30 days would be greatly appreciated.

In accordance with the Freedom ofInformation Act (5 U.S.c. § 552), reports issued by
the Office of Inspector General are available, if requested, to members ofthe press and
general public to the extent information contained therein is not subject to exemptions in
the Act.


                                                             Sincerely,



                                                             Daniel Schultz
                                                             Regional Inspector General
                                                              for Audit




                                                      11
Audit of NYCDOE, Manhattan High Schools Superintendent’s                                          Final Report 

District’s Administration of the 21st CCLC Program     ATTACHMENT 1          page 1         ED-OIG/A02-D0007




           THE NEW YORK CITY DEPARTMENT OF EDUCATION
                    Cfiancefwr
           JOEL I. KLEI N ,
           OFFICE OF THE DEPUTY CHANCELLOR
           Kathleen Grimm, Deputy Chancellor for Finance and Administration
           52 Chambers Street, Room 320. New York, New York 10007
           (212) 374-0209 (Voice) (212) 374-5588 (Facsimile)


                                                             November 3, 2003

       Daniel Schultz
       Regional Inspector General for Audit
       U.S. Department of Education
       Office ofInspector General
       75 Park Place, 12th Floor
       New York, NY 10007

                                                     Re:     USDOE-OIG Draft Audit Report on the
                                                             New York City Department of Education ' s
                                                             Manhattan High Schools Superintendent' s
                                                             Administration of the    21 s t Century
                                                             Community Learning Centers (CCLC)
                                                             Program

       Dear Mr. Schultz:

              This letter, with attachments, reflects the New York City Department of Education ' s
       ("Department") response to the findings and recommendations made in the U.S Department of
       Education, Office of Inspector General ("USDOE-OIG") Draft Audit Report on the Manhattan
       High Schools Superintendent's District's Administration of the 21 st Century Community
       Learning Centers (21 st CCLC) Program.

               We are pleased with the USDOE-OIG's conclusion that the Department in general
       accounted for and used the 21 st CCLC funds properly. The 21 st Century Program supports the
       Department's Office of Youth Development and School Community Services' goal to expand
       opportunities for student achievement and youth development in concert with community-based
       organi zations. Towards that end, the Department's Division of Financial Operations (DFO) is
       committed to support the 21 5t CCLC programmatic requirements, as well as meeting its financial
       requirements.

               We are also pleased to inform you that the instances of the non-compliance with the
       federal funds transfer guidelines and the internal controls over imp rest funds encumbrances
       identified in the report, have been rectified. DFO also intends to improve the on and off-site
       records retention systems.

                                                                      Sincerely,




                                                                 ~~G:n:
                                                                      Deputy Chancellor for Finance and
                                                                      Administration
    Audit of NYCDOE, Manhattan High Schools Superintendent’s                                                     Final Report 

    District’s Administration of the 21st CCLC Program     ATTACHMENT 1                page 2              ED-OIG/A02-D0007




                                                                                                Audit Implementation Plan Form A

    NEW YORK CITY DEPARTMENT OF EDUCATION                                           PAGE 1 OF7
    OFFICE OF AUDITOR GENERAL
    External Audit Services


                                                                                    RESPONSE DATE: November 3,2003

    AUDIT TITLE: Audit of Ihe NYC Dept. of Education (NYCDOE) Manhattan High Schools' Superintendent's District's
                            st
    Administration of the 21 Century Community Learning Centers (21st CCLC) Program

    AUDITING AGENCY: U.S. Dept. of Education

    DIVISION: Office of Inspector General

    DRAFT REPORT DATE: 9/23/03

    AUDIT NUMBER: ED-OIG/A02-D0007


                                       A. RECOMMENDATION WHICH THE AGENCY
                                                HAS IMPLEMENTED


    1.1 Establish procedures to ensure that it minimizes the time between drawing down 21 st CCLC grant funds and paying
    for grant activities.


                              RESPONSE TO RECOMMENDATION - IMPLEMENTATION PLAN

    As noted in the audit, the NYCDOE included in its requests for the transfer of 21 st CCLC funds ("draw downs') amounts
    recorded as encumbrances, or non-personnel obligations incurred for grant activities, rather than actual expenditures.
    Actual expenditures for non-personnel items are made only after certification that the goods or services for the program
    has been provided. This certification may take several days or weeks after the encumbrance. Consequently, the practice
                    st
    of initiating 21 CCLC funds transfers based on encumbrances (rather than expenditures) contributed to much of the time
    delay between the fund draw downs and the actual payments related to the program, which federal cash management
    guidelines state should not exceed three business days.

    The NYCDOE had discontinued this draw down practice for its non-personnel transactions when it was initially brought to
                         st
    our attention by a 21 CCLC program officer in 2001. Since then , the NYCDOE only requests the transfer of 21 st CCLC
    funds once actual payments are made. Therefore, funds will no longer be requested more than the allowable 3-day
    period.


                                                  IMPLEMENTATION DATE

                                                     Implemented 1/1/2002


                                                  RESPONSIBILITY CENTER

                                                Division of Financial Operations


                         .~~
                                  Hada~
           Signature:
I
            Print Name: Michael

            Print Title: Director, Receivables Accounting
Audit of NYCDOE, Manhattan High Schools Superintendent’s                                                          Final Report 

District’s Administration of the 21st CCLC Program     ATTACHMENT 1                     page 3              ED-OIG/A02-D0007





                                                                                                 Audit Implementation Plan Form C


 NEW YORK CITY DEPARTMENT OF EDUCATION                                              PAGE 2 OF7
 OFFICE OF AUDITOR GENERAL
 External Audit Services


                                                                                    RESPONSE DATE: November 3,2003

 AUDIT TITLE: Audit of the NYC Dept. of Education (NYCDOE) Manhattan High Schools' Superintendent's District's
 Administration of the 21" Century Community Learning Centers (21" CCLC) Program

 AUDITING AGENCY: U.S. Dept. of Education

 DIVISION: Office of Inspector General

 DRAFT REPORT DATE: 9/23/03

 AUDIT NUMBER: ED-OIG/A02-D0007



                                    C. RECOMMENDATION WHICH THE AGENCY
                                  AGREES WITH BUT IS PENDING IMPLEMENTATION


 1.2 Calculate and return the interest liability to ED incurred from maintaining excess cash.



                                           RESPONSE TO RECOMMENDATION


 The NYC DOE agrees to pay interest for the time for the period between the day 21" CCLC funds were drawn down and
 the day funds were actually paid, which had exceeded the allowable 3-day period. We are awaiting information from ED
 regarding the interest rate to be used in this calculation.




                                           TARGET IMPLEMENTATION DATE


                                                            12/1/03


                                                 RESPONSIBILITY CENTER

                                                Division of Financial Operations



         Signature:
                        \~~G-~
         Print Name: Michael Hadaway

          Print Title: Director, Receivables Accounting
    Audit of NYCDOE, Manhattan High Schools Superintendent’s                                                        Final Report 

    District’s Administration of the 21st CCLC Program     ATTACHMENT 1                    page 4             ED-OIG/A02-D0007





                                                                                               Audit Implementation Plan Form 0




    NEW YORK CITY DEPARTMENT OF EDUCATION                                              PAGE30F7
    OFFICE OF AUDITOR GENERAL
    External Audit Services


                                                                                       RESPONSE DATE: November 3,2003

    AUDIT TITLE: Audit of the NYC Dept. of Education (NYCDOE) Manhattan High Schools' Superintendent's District's
    Administration of the 21" Century Community Learning Centers (21" CCLC) Program

    AUDITING AGENCY: U.S. Dept. of Education

    DIVISION: Office of Inspector General

    DRAFT REPORT DATE: 9/23/03

    AUDIT NUMBER: ED-OIG/A02-D0007



                                       C. RECOMMENDATION WHICH THE AGENCY
                                     AGREES WITH BUT IS PENDING IMPLEMENTATION


    2.1 Provide sufficient documentation to support $61 ,776 or return the amount to ED.


                                              RESPONSE TO RECOMMENDATION

    Starting with the 2002/2003 school year, the NYCDOE is undergoing the largest organizational transformation in its
    history to support the Mayor's Children First Reform initiative. This organizational change included the elimination of the
    High School Superintendencies and their office space. Consequently, original documentation that was maintained in the
    Manhattan Superintendent's office to support expenditures related to the 21" CCLC program had been relocated off-site
    and could not be retrieved during the audit.

    In addition, original supporting documentation maintained and archived centrally could not be located. Although the
    NYC DOE obtained mitigating evidence in lieu of the original records the auditors were not satisfied with the
    documentation provided.

    We agree that $61 ,776 should be returned to the U.S. Department of Education.

                                              TARGET IMPLEMENTATION DATE

                                                                12/1/03

                                                    RESPONSIBILITY CENTER

                                                   Division of Financial Operations



I           Signature:


            Print Nam                                                                        / Date

            Print Title:     Administrator, Office of Fiscal Affairs
     Audit of NYCDOE, Manhattan High Schools Superintendent’s                                                           Final Report 

     District’s Administration of the 21st CCLC Program     ATTACHMENT 1                     page 5               ED-OIG/A02-D0007




                                                                                                      Audit Implementati on Plan Form C

    NEW YORK CITY DEPARTMENT OF EDUCATION                                               PAGE 4 OF 7
    OFFICE OF AUDITOR GENERAL
    External Audit Services


                                                                                        RESPONSE DATE: November 3, 2003

    AUDIT TITLE: Audit of the NYC Dept. of Education (NYC DOE) Manhattan High Schools' Superintendent's District's
    Administration of the 21 " Century Commun ity Learning Centers (21" CCLC) Program

    AUDITING AGENCY: U.S. Dept. of Education

    DIVISION: Office of Inspector General

    DRAFT REPORT DATE: 9/23/03

    AUDIT NUMBER: ED-OIG/A02-D0007



                                        C. RECOMMENDATION WHICH THE AGENCY
                                      AGREES WITH BUT IS PENDING IMPLEMENTATION


    2.2 Establish procedures to effectively monitor the records retention system in order to ensure that rec ords are read ily
    available.


                                               RESPONSE TO RECOMMENDATION


    The NYCDOE's on and off-site records retention systems are designed to allow for the accurate identification and retrieval
    of documentation required for audit. However, steps can be taken to improve the timeliness for retrieving documentation.

    When feasible, we will request that additional resources be directed to bac klogs in label ing and obtaining archived records
    from storage. In addition, we will evaluate the effectiveness of the services of a newly contracted vendor charged with
    transporting , storing and retrieving archived NYCDOE documentation off-site.



                                              TARGET IMPLEMENTATION DATE

                                                                9/1/04


                                                    RESPONSIBILITY CENTER

                                                   Division of Financial Operations



            Signature:



•           Print Name·

            Print Title:
                             John Wall

                             Administrator, Office of Fiscal Affairs
                                                                                                 Date
    Audit of NYCDOE, Manhattan High Schools Superintendent’s                                              Final Report 

    District’s Administration of the 21st CCLC Program     ATTACHMENT 1            page 6           ED-OIG/A02-D0007





                                                                                    Audit Implementation Plan Form B

      NEW YORK CITY DEPARTMENT OF EDUCATION                               PAGE 5 OF 7
      OFFICE OF AUDITOR GENERAL
      External Audit Services


                                                                          RESPONSE DATE: November 3,2003

      AUDIT TITLE: Audit of the NYC Dept. of Education (NYCDOE) Manhattan High Schools'
                                                          st                                     st
      Superintendent's District's Administration of the 21 Century Community Learning Centers (21 CCLC)
      Program

      AUDITING AGENCY: U.S. Dept. of Education

      DIVISION: Office of Inspector General

      DRAFT REPORT DATE: 9/23/03

      AUDIT NUMBER: ED-OIG/A02-D0007

                                 C. RECOMMENDATION WHICH THE AGENCY
                               AGREES WITH BUT IS PENDING IMPLEMENTATION


      2.3 Ensure the District establishes procedures to ensure that costs are properly allocated relative to the
      benefits received .


                                        RESPONSE TO RECOMMENDATION


      NYC DOE Senior Grants Officers , in conjunction with the Office of Government and Grants Programs and
      the Regional Operating Centers to which they jointly report, provide technical and high level support to
      ensure prudent management of grants-based awards. This support includes preparing and educating
      schools and central offices on procedures for effective, compliant grants management of federal
      competitive grants, such as the 21 st CCLC program.

      Future training efforts on these procedures will reiterate the program's cost allocation requirements.

      (As noted in the "Other Matters" section of the audit report, the in-kind contribution amount reported on
      the ED's federal Grant Performance Report was not adequately documented and later determined to be
      erroneous. As part of their ongoing professional development training, Senior Grants Officers will
      emphasize to the schools and Reg ional Operating Centers the requirements for accurate , documented
      cost sharing for federal programs. )


                                               TARGET IMPLEMENTATION DATE

                         Pursuant to training programs calendar for the 2004/2005 school year

                                              RESPONSIBILITY CENTER

                                     Office for Government and Grants Programs

I

                                                                                                           Date
     Audit of NYCDOE, Manhattan High Schools Superintendent’s                                                          Final Report 

     District’s Administration of the 21st CCLC Program     ATTACHMENT 1                     page 7              ED-OIG/A02-D0007




                                                                                                      Audit Implementation Plan Form C

    NEW YORK CITY DEPARTMENT OF EDUCATION                                               PAGE 6 OF7
    OFFICE OF AUDITOR GENERAL
    External Audit Services


                                                                                        RESPONSE DATE: November 3,2003

    AUDIT TITLE: Audit of the NYC Dept. of Education (NYCDOE) Manhattan High Schools' Superintendent's District's
    Administration of the 21" Century Community Learning Centers (21" CCLC) Program

    AUDITING AGENCY: U.S. Dept. of Education

    DIVISION: Office of Inspector General

    DRAFT REPORT DATE: 9/23/03

    AUDIT NUMBER: ED-OIG/A02-D0007



                                        C. RECOMMENDATION WHICH THE AGENCY
                                      AGREES WITH BUT IS PENDING IMPLEMENTATION


    2.4 Establish effective controls for maintaining original detailed time cards and time sheets in order to ensure that the
    records are readily available during the required retention period.


                                               RESPONSE TO RECOMMENDATION


    The NYCDOE's on and off-site records retention systems are designed to allow for the accurate identification and retrieval
    of documentation required for audit. However, steps can be taken to improve the timeliness for retrieving documentation.

    When feasible, we will request that additional resources be directed to backlogs in labeling and obtaining archived records
    from storage. In addition, we will evaluate the effectiveness of the services of a newly contracted vendor charged with
    transporting, storing and retrieving archived NYCDOE documentation off-site.


                                              TARGET IMPLEMENTATION DATE

                                                                9/1/04


                                                    RESPONSIBILITY CENTER


                                                   Division of Financial Operations


            Signature:

                                                                                               I~
•           Print Title:     Administrator, Office of Fiscal Affairs
    Audit of NYCDOE, Manhattan High Schools Superintendent’s                                                         Final Report 

    District’s Administration of the 21st CCLC Program     ATTACHMENT 1                    page 8              ED-OIG/A02-D0007




                                                                                                    Audit Implementation Plan Form A

    NEW YORK CITY DEPARTMENT OF EDUCATION                                              PAGE 7 OF 7
    OFFICE OF AUDITOR GENERAL
    External Audit Services


                                                                                       RESPONSE DATE: November 3, 2003

    AUDIT TITLE: Audit of the NYC Dept. of Education (NYCDOE) Manhattan High Schools' Superintendent's District's
    Administration of the 21" Century Community Learning Centers (21" CCLC) Program

    AUDITING AGENCY: U.S. Dept. of Education

    DIVISION: Office of Inspector General

    DRAFT REPORT DATE: 9/23/03

    AUDIT NUMBER: ED-OIG/A02-D0007


                                         A. RECOMMENDATION WHICH THE AGENCY
                                                  HAS IMPLEMENTED


    3.1 Implement internal control policies and procedures that provide adequate separation of duties and verification of
    purchase orders and invoices.


                               RESPONSE TO RECOMMENDATION - IMPLEMENTATION PLAN

    In September 2003, schools and central offices began generating imprest and purchase orders through the NYCDOE's
    new portal to its accounting system, FAMIS. The FAMIS portal provides a secure, economical and streamlined means for
    initiating and completing financial transactions at the user level.

    The web·based portal is designed with built-in approval paths that electronically forward imprest and purchase orders
    through different levels of authorization according to prescribed monetary thresholds. Depending on the order's
    origination and dollar value, the approval paths direct the transactions to electronic mailboxes of the school principal,
    Regional Operations Center and/or central office. At this point, the approver reviews the details of the transaction on·line
    before the order can be forwarded to the vendor.

    In addition, this electronic process eliminates the need for manual purchase orders that are subject to the kind of
    mathematical errors that were identified in the audit.

    Because of its ease of use and established approval paths, the portal allows for improved segregation of duties for
    imprest and purchase orders.

                                                     IMPLEMENTATION DATE

                                                           September 2003

                                                    RESPONSIBILITY CENTER

                                                   Division of Financial Operations

            Signature:
I
                                                                                                Date

            Print Title:     Administrator, Office of Fiscal Affairs
